CREDIT CARD
ACCOUNT
OPENING
DISCLOSURE
VISA CLASSIC/VISA PLEDGE
This Disclosure is incorporated into and becomes part of Your LOANLINER® Consumer Credit Card Agreement &
Disclosure. Please keep this attached to Your LOANLINER Consumer Credit Card Agreement & Disclosure.
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases
APR for Balance Transfers

13.80%

APR for Cash Advances

13.80%

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will
not charge You any interest on purchases if You pay Your entire balance by
the due date each month. We will begin charging interest on cash advances
and balance transfers on the transaction date.

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

13.80%

Fees
Annual Fee
- Annual Fee

None

Transaction Fees
- Cash Advance Fee
- Foreign Transaction Fee

$3.00 or 2.00% of the amount of each cash advance, whichever is greater
None

Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee

Up to $25.00
None

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)." See Your Account Agreement for more
details.
Billing Rights:
Information on Your rights to dispute transactions and how to exercise those rights is provided in Your Account
Agreement.
Military Lending Act Disclosures:
Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions
of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent
may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or
account: The costs associated with credit insurance premiums; fees for ancillary products sold in connection with the
credit transaction; any application fee charged (other than certain application fees for specified credit transactions or
accounts); and any participation fee charged (other than certain participation fees for a credit card account).
Please call us at (800) 236-5898 to receive oral disclosures of the Military Lending Act disclosure above and a description
of the payment obligation.
Other Fees & Disclosures:
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if You are 10 or more days late in making a
payment. If Your Account is subject to a Late Payment Fee, the fee will be charged to Your Account when You do not
SEE NEXT PAGE for more important information about Your Account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

04802327-MXC20-P-7-082417 (MXC201-E)

make the required minimum payment by or within the number of days of the statement Payment Due Date set forth on this
Disclosure.
Cash Advance Fee (Finance Charge):
$3.00 or 2.00% of the amount of each cash advance, whichever is greater. If Your Account is subject to a Cash Advance
Fee (finance charge), the fee will be charged to Your Account when You obtain a cash advance from an ATM, the Credit
Union or other financial institution.
Returned Convenience Check Fee:
$26.00 or the amount of the returned convenience check, whichever is less. If Your Account is subject to a Returned
Convenience Check Fee, the fee will be charged to Your Account when a convenience check is returned for any reason.
Card Replacement Fee:
$5.00. If Your Account is subject to a Card Replacement Fee, a fee will be charged for each replacement Card that is
issued to You for any reason.
Document Copy Fee:
$5.00 . If Your Account is subject to a Document Copy Fee, except as limited by applicable law, a fee may be charged to
Your Account for each copy of a sales draft or statement that You request (except when the request is made in
connection with a billing error made by the Credit Union).
Rush Fee:
$25.00. If Your Account is subject to a Rush Fee, except as limited by applicable law, a fee may be charged to Your
Account for each rush Card that You request, providing that delivery of the Card is also available by standard mail service,
without paying a fee for delivery.
Statement Copy Fee:
$5.00 . If Your Account is subject to a Statement Copy Fee, except as limited by applicable law and when the request is
made in connection with a billing error made by the Credit Union, a fee may be charged to Your Account for each copy of
a sales draft or statement that You request.
Picture My Card Fee:
$10.00. If Your Account is subject to a Picture My Card Fee, except as limited by applicable law, a fee may be charged to
Your Account each time you request a personalized design on Your credit card.
Periodic Rates:
The Purchase APR is 13.80% which is a daily periodic rate of 0.0378%.
The Balance Transfer APR is 13.80% which is a daily periodic rate of 0.0378%.
The Cash Advance APR is 13.80% which is a daily periodic rate of 0.0378%.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

04802327-MXC20-P-7-082417 (MXC201-E)

